U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 18, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Hope Angelic White v. United States, et al., No. 20-587
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 26,
2020, and placed on the docket on November 3, 2020. The government’s response is now due,
after one extension, on January 4, 2021. We respectfully request, under Rule 30.4 of the Rules of
this Court, a further extension of time to and including February 5, 2021, within which to file a
response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0587
WHITE, HOPE A.
USA, ET AL.

HOWARD ARLAN SHALOWITZ
LAW OFFICES OF HOWARD A. SHALOWITZ
P.O. BOX 410404
ST. LOUIS, MO 63124
314-277-9977
HAZZANHOWIE1@YAHOO.COM

